        CORPORATION
        FOR NATIONAL




OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    October 1, 1994 - March 3 1, 1995




                                        Fiscal Year 1995
                                         April 21, 1995


                                                                                                                  ~p




The Honorable Eli J. Segal                                                                CORPORATION
Chief Executive Officer                                                                   FOR NATIONAL
Corporation for National
 and Community Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Mr. Segal:

      I have enclosed the Office of Inspector General semiannual report for the six-month period
ending March 31, 1995, required by the Inspector General Act of 1978, as amended (the Act).
You are to submit this report, along with any comments you may wish to make, and other
statistical tables and reports required by the law, to the Congress within 30 days. In addition,
the Act requires that you submit this report (with your comments and the other required
information) to the Corporation's Board of Directors no later than the date on which you
submit the report to the Congress.

       This reporting period has been one of change. We have changed our audit plan for the
year to redirect our resources to areas of high risk, carry out the Government Corporation
Control Act's requirement for an audit of CNS financial statements, and better learn CNS'
operations. We have changed our methods for performing audits and our reports. And, we
have experienced changes in personnel. Consequently, much of the work begun in the first
half of the year is still in progress and at March 31st, three audits begun in the prior period are
still in the reporting stage.

Yours truly,



Luise S. ~ o r d a i
Inspector General


Enclosure



                                                                                          120 1 New York Avenue. N W
                                                                                          Wash~ngton.DC 20525
                                                                                          Telephone 202-M)6-5000




                                                                                          Getting Things Done.
                                                                                          Amencorps. Nauonal Sewlce
                                                                                          Lem and Serve America
                                                                                          Nalional Senlor Serv~ceCorns
OFFICE OF INSPECTOR GENERAL




 Semiannual Report to the Congress

  October 1, 1994 - March 3 1, 1995
        CORPORATION FOR NATIONAL SERVICE

                     OFFICE OF INSPECTOR GENERAL



               SEMIANNUAL REPORT TO THE CONGRESS

                              TABLE OF CONTENTS



ORGANIZATION AND MANAGEMENT . . . . . . . . . . . . . . . . . . . .                      1

AUDITING ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      3

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5

         Statistical Summary of Investigations . . . . . . . . . . . . . . . . . . .     7

REVIEW OF LEGISLATION AND REGULATIONS . . . . . . . . . . . . . . 8
             SEMIANNUAL REPORT TO THE CONGRESS

                         TABLE OF CONTENTS
                                 Continues


TABLE I     --   INSPECTOR GENERAL ISSUED REPORTS WITH
                 QUESTIONED COSTS FOR THE SIX-MONTH PERIOD
                 ENDING MARCH 31,1995 . . . . . . . . . . . .           9

TABLE I1    --   INSPECTOR GENERAL ISSUED REPORTS WITH
                 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER
                 USE FOR THE SIX-MONTH PERIOD ENDING
                 MARCH 3 1, 1995  . . . . . . . . . . . . . . .         10

TABLE I11   --   AUDIT REPORTS ISSUED DURING THE PERIOD
                 OCTOBER 1, 1994 - MARCH 3 1, 1995 . . . . . . . .      11

TABLE IV    --   SUMMARY OF AUDITS WITH.OVERDUE MANAGEMENT
                 DECISIONS  . . . . . . . . . . . . . . . . . . . . .   12

INDEX TO REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL .              13
                       ORGANIZATION AND MANAGEMENT


     The National Service Trust Act of 1993 created the Corporation for National and
Community Service (CNS). Formed in conjunction with the White House Office of National
Service, built upon the foundation of the former Commission on National and Community
Service and the former ACTION agency, CNS engages Americans of all backgrounds in
community-based service to address the nation's education, human, public safety, and
environmental needs. CNS operations began in FY 1994.

     The Office of the Inspector General presently has fourteen positions. Luise S. Jordan was
confmed by the Senate on October 6, 1994 and assumed her duties as the first CNS Inspector
General on October 17th. Mr. Joseph M. Suszko is Deputy Inspector General. Because of
personnel changes and a greater focus on financial and financial-related audits, we have
reorganized our office as illustrated below. On April 16, 1995, Mr. William Anderson
assumed the position of Acting Assistant IG for Audit and Mr. Robert Shadowens, the position
of Acting Assistant IG for Investigations.


                                    I                              1
                                    w
                                           Inspector General

                                        Deputy Inspector General




                      Acting Assistant                         Acting Assistant
                      Inspector General                        Inspector General

                        Investi ation                                  Audits




      We have revised our approach to auditing at CNS to concentrate on CNS' newly
established AmeriCorps programs, to support the audit of CNS' financial statements and focus
on other areas of risk to CNS. To learn about the new programs we have attended CNS
training sessions and, in the third quarter, will participate with CNS grants management staff
in reviewing State Commissions. Under the National Service Trust Act, State Commissions
administer the competition for AmeriCorps programs, develop the state's service plan and are
responsible for oversight and monitoring of funded AmeriCorps programs. Approximately
two-thirds of the AmeriCorps grants funding is through CNSIState Commission partnerships,
and State Commissions also receive administrative grants in support of their operations.
     We have redirected our audit plan to include surveys of grantees who are in their initial
year of receiving ArneriCorps funding to determine their capability to comply with Federal
fiscal accounting and reporting requirements and to safeguard Federal funds.

     We are working with CNS management to coordinate the compilation of the FY 1994
financial statements and intend to award a contract for their audit to an independent accounting
f m . In support of the financial statement audit and to determine areas for future OIG audits
we conducted pre-audit surveys to document the controls structure for CNS grants and non-
grant procurement.

    We will consider the results of these projects in establishing the office's strategic plan to
ensure that its focus is risk-based and congruent with CNS' strategic plan.

Peer Review

     The OIG is required by statute to have a peer review performed of its audit operations
every three years. The review was conducted by auditors from the Peace Corps Inspector
General's Office. The resulting report was issued in January 1995 and concluded that this
office fully complied with generally accepted government auditing standards issued by the
Comptroller General of the United States
                                 AUDITING ACTIVITIES


Overview

      During this reporting period, although much of our efforts were directed toward CNS'
first financial statement audit, we initiated nine separate audits, surveys and other projects.
We completed field work on three audits that were in progress at the start of the period. We
issued three final and four draft reports.

Annual Financial Statement Audit

    The Government Corporation Control Act requires the Corporation to develop a
management report containing audited financial statements. The OIG completed a statement
of work to solicit bids from an independent accounting fm to audit these statements.
Oversight of the CPA's efforts will be coordinated by the CNSIOIG. The audit is expected to
commence during May with a anticipated completion date by August 31, 1995. OIG will
monitor the audit. In support of the audit we initiated two pre-audit surveys to assess
management controls over the CNS procurement and grants processes.

Grant Audits

     OIG completed fieldwork for the audits of three grants during this period: City Year of
Boston, Delta Service Corps and the American Institute of Public Service (AIPS). Draft
reports for the City Year and the AIPS audits have been issued for comment by those involved;
and we expect to issue the final reports in April. We are currently drafting the Delta Service
Corps audit report.

Initial Year Reviews

     In January, the Inspector General initiated efforts to assess ArneriCorps and Learn 'n
Serve grantee management controls and procedures to determine organizations' ability to
comply with Federal fiscal accounting and reporting requirements and to safeguard related
funds. We performed three such reviews during this period. We are also in the process of
working with Corporation officials to identify the best grantee and subrecipient candidates for
future application of this review effort.

     Our reviews have identified some control weaknesses, budget omissions, and other issues.
We have recommended correction actions and brought the issues to CNS' attention for
resolution.
                              Initial Year Reviews Performed



             Grantee                               Issues                    Report Status
                                    Accounting     Budgetary     Other
 National Association of Child                                              Draft Report
 Care Resource and Referral              X              X           X       issued for
 Agencies                                                                   response by CNS
                                                                            and Grantee
                                                                            Draft Report
 MAGIC ME, Inc.                                                     X       issued for
                                                                            response by CNS
                                                                            and Grantee
 The ASPIRA Association, Inc.                     No issues                 Final Report



Pre-Audit Surveys--CNS Procurement and Grant Processes

     To assist the independent CPA firm in the audit of the CNS financial statements and to
identify areas for future OIG audits, we initiated pre-audit surveys of the grants and non-grant
procurement processes. Both surveys were completed in April and we have issued draft
reports to management for their response and for their use in assessing management controls.
The OIG auditors who performed the surveys will work with the accounting firm so that our
work can be used to facilitate the financial statement audit. We will also work with
management so that improvements and corrections of control weaknesses are addressed in light
of additional recommendations hat may arise from the audit, management's assessment of its
control structure, and the National Performance Review's recommendations for reinventing
government's processes.

Efforts to Supplement Audit Resources

     To supplement the OIG's audit resources, we established an interagency agreement with
the Department of Labor Inspector General to use their contracted CPA firms to conduct audits
and other reviews of Corporation grantees when needed. Actual use of these firms is
anticipated during the next reporting period.
Single Audit Act Reports

     The Single Audit Act and related OMB Circulars require state and local governments,
nonprofit organizations, and institutions of higher education to provide annual or biennial audit
reports to government agencies responsible for their Federal funding. During this period, the
OIG processed 359 such reports. Of that total, none contained findings relevant to Corporation
programs.


                                     INVESTIGATIONS

     We opened three new investigations during this reporting period and carried forward four
previously-opened cases. We closed a total of five cases.

     The following highlights our investigative activity during this reporting period:

Allegations of Employee Misconduct

     We completed an investigation into allegations that an employee in one of the
Corporation's field offices had an improper personal relationship with a grantee. Our
investigation established that the employee had accepted gifts of hospitality from the grantee
and had engaged in other activities which created the appearance that the employee was not
carrying out his duties in an impartial manner. We made several recommendations in our
report of investigation, and management has initiated administrative action to correct the
situation.

Alleged Irregularities in Printing Procurement

     We worked with the Office of Inspector General of the Government Printing Ofice to
investigate an allegation that a Corporation employee had engaged in bid collusion with a
private printing contractor in the procurement of a printing job. The investigation revealed no
evidence of criminal wrongdoing on the part of the employee or the contractor. We made
several recommendations for administrative improvement of the printing procurement process.


Other Cases Closed During this Period

     We closed three other cases, which had been opened previously, with no significant
findings. (One of these cases, which had been pending with the U.S.Attorney's Office for
quite some time, was closed after we were advised that prosecution was being declined).
Administrative action had previously been taken in the case.
Building Security

    We are assisting the Federal Protective Service in the investigation of several thefts of
Government and personal property from Corporation headquarters. Management has adopted
some of our preliminary recommendations for increasing the physical security in the
headquarters building. Our investigation is ongoing.

Alleged Irregularities in VISTA Project

     We are pursuing an allegation that a VISTA volunteer may have received financial
benefits from the Government for service that was not performed. This case was opened
during the previous period and is nearing completion.
                              Statistical Summary of Investigations


Number of cases open at beginning of reporting period .............................................4


Number of new cases opened during this reporting period ..........................................3


Number of cases closed during this reporting period
 with significant findings ................................................................................
                                                                                                         2

Number of cases closed during this reporting period
 with no significant findings ............................................................................
                                                                                                        3

Total cases closed during this reporting period .......................................................
                                                                                                     5


Number of cases open at end of reporting period ....................................................
                                                                                                  2


No cases were referred for prosecution during this reporting period .
              REVIEW OF LEGISLATION AND REGULATIONS

    The OIG reviewed and offered comments on CNS' proposed final rule to incorporate
changes to OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit
Organizations, notices of proposed rulemaking, and other matters.
                                                            TABLE I

      INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
           FOR THE SIX-MONTH PERIOD ENDING MARCH 31,1995*

                                                                 Number                     Dollar Value
                                                                                                  (ow
                                                                                  Questioned           Unsupported
                                                                                          Costs                     Costs
                      For which no management
                      decision has been made by the
                      commencement of the                        5
                      reporting period
                      Which were issued during the               1
                      reporting period
                       Subtotals (1 plus 2)                      6




                       For which a management
                       decision was made during the
                       reporting period

                       (i) dollar value of disallowed
                            costs
                       (ii) dollar value of costs not
                             disallowed
                       For which no management
                       decision has been made by the
                       end of the reporting period
                       (3 minus 4)




                       Reports for which no
                       management decision was
                       made within six months of
                       issuance



*   These totals have been adjusted from prior semi-annual reports to include only reports with questioned costs.


                                                                     9
                                         TABLE I1

INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
             THAT FUNDS BE PUT TO BETTER USE
      FOR THE SIX-MONTH PERIOD ENDING MARCH 31,1995




                                                     Number   PQllar Value


A.   For which no management decision has been
     made by the commencement of the reporting
     period                                            0
B.   Which were issued during the reporting period     0
C.   For which a management decision was made
     during the reporting period                       0

     (i)    dollar value of recommendations that
            were agreed to by management

            - based on proposed
                management action
            -   based on proposed
                 legislative action

     (ii)   dollar value of recommendations that
            were not agreed to by management
D.   For which no management decision has been
     made by the end of the reporting period

     Reports for which no management decision
     was made during six months of issuance




                                               10
                                                       TABLE I11



            AUDIT REPORTS ISSUED DURING THE PERIOD OCTOBER 1,1994 - MARCH 31, 1995


Internal   Audit                                                    Federal       Federal
Control    Report                                                   Dollars       Dollars
Number      Date                     Name of Grantee               Questioned   Unquestioned      City      State


94-09-60   10107194    Fresno Adult Literacy Council               $2,440.00        $916.00      Fresno     CA
95-05      02/03/95    CNS Compliance with Lobbying Restrictions        0.00            0.00   Washington   DC
95-08      0313 1/95   ASPIRA, Inc                                      0.00            0.00   Washington   DC



Total
                                                TABLE IV



             SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                                                           -




        Internal                                      Federal        Federal                   Management
h~ord   Control                                       Dollars      Questioned                   Decision
 #      Number            Name of Grantee            Questioned   Non-supported   Status        Due Date


                   Senior Service Corps, Inc.                                     RPT
                   Senior Service Corps, Inc.                                     RPT
                   Senior Service Corps, Inc.                                     RPT
                   Senior Service Corps, Inc.                                     RPT
                   Round Rock Chapter of The
                   Navajo Nation                                                  RPT
                   Portland Youth Service Corps                                   RPT
                   Youth Volunteer Corps of
                   America                                                        RPT
                   Public Allies                                                  RPT
1     INDEX TO REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

I

    IG Act Reference1                      Reporting Requirement                 Page


    Section 4 (a)(2)                    Review of legislation and
                                        regulations.
    Section 5 (a)(l)                    Significant problems,
                                        abuses, and deficiencies.
    Section 5 (a)(2)                    Recommendations with
                                        respect to significant
                                        problems, abuses, and
                                        deficiencies.
    Section 5 (a)(3)                    Prior significant
                                        recommendations on which
                                        corrective action has not
                                        been completed.
    Section 5 (a)(4)                    Matters referred to
                                        prosecutive authorities.
    Section 5 (a)(5)                    Summary of instances where
                                        information was refused
    Section 5 (a)(6)                    List of audit reports by
                                        subject matter showing
                                        dollar value of questioned
                                        costs and recommendations
                                        that funds be put to better
                                        use.
    Section 5 (a)(7)                    Summary of each
                                        particularly significant
                                        report.




           Refers to sections in the lmpector General Act of 1978, as amended.
  INDEX TO REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL


IG Act Reference           Reporting Requirement    Page
                           - --




Section 5 (a)@)      Statistical table showing
                     number of reports and dollar
                     value of questioned costs       9
Section 5 (a)(9)     Statistical table showing
                     number of reports and dollar
                     value of recommendations
                     that funds be put to better
                     US.

Section 5 (a)(10)    Summary of each audit
                     issued before this reporting
                     period for which no
                     management decision was
                     made by end of reporting
                     period.
Section 5 (a)(l 1)   Significant revised
                     management decisions.
Section 5 (a)(12)    Significant management
                     decisions with which the
                     Inspector General disagrees.
                    HOTLINE


                Toll-Free, 24 Hours a Day

  INFORMATION IS CONFIDENTIAL

For general information or to request this report in an
                  alternate format
                       write:


             Office of Inspector General
              Corporation for National
               and Community Service
             1201 New York Avenue, NW
               Washington, DC 20525

                        or call:

               (202) 606-5000 Ext: 390
DATE:          October 27, 1995

TO:            Harris Wofford



CNS' response is due within 30 days of the date I issue the OIG report. At that time you send the
OIG report and the CNS response to the appropriate committees or subcommittees of the Congress
(IG Act, Section 5b). Further, the Section 8F(b) of the IG Act, as amended, requires you to transmit
the OIG Report and CNS' response to the Board of Directors on the same day that you send the
reports to the Congressional committees. Section 8F(c) requires you to provide copies of certain
audits where there has been significant delay in taking final agency action. These audits are to be
discussed at the next meeting of the Board of Directors.

Because experience has taught me that it is always best to include a response to a report when the
report is made public, I adopted the policy for my office to wait until CNS' response to the report
is available before distribution to the general public. Therefore, except for the handhl of reports that
I send out today, distributions of Semiannual Reports from my office include your response - which
is separately bound and titled, "Semiannual Report to Congress on Audit Follow-up."

As I alluded to above, after both reports have been sent to Congress, there are a number of separate
mailings and distributions (by the CFO's office, Rhonda Taylor, and my office). The OIG's mailing
list includes Congressional committees, certain interested members and staff, and OMB. In total,
I estimate that somewhere between 150 - 200 copies of the reports were bound and distributed last
time (the March 3 1, 1995 Semiannual Report). I have reviewed all the mailing lists that I could get
my hands on and (to the best of my ability) eliminated duplication.

If you have fkrther questions or wish to discuss the report, I'll be glad to brief you. I am taking some
time off but am staying home. You can reach me at (4 10) 53 1-6010.

c:      Jim Joseph
        Chris Gallagher
        Gary Kowalczyk
        Levon Buller
                                         April 21, 1995



The Honorable Eli J. Segal                         0uqd                                   CORPORATION

Chief Executive Officer                                                                   FOR NATIONAL
Corporation for National
 and Community Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Mr. Segal:

      I have enclosed the Office of Inspector General semiannual report for the six-month period
ending March 31, 1995, required by the Inspector General Act of 1978, as amended (the Act).
You are to submit this report, along with any comments you may wish to make, and other
statistical tables and reports required by the law, to the Congress within 30 days. In addition,
the Act requires that you submit this report (with your comments and the other required
information) to the Corporation's Board of Directors no later than the date on which you
submit the report to the Congress.

       This reporting period has been one of change. We have changed our audit plan for the
year to redirect our resources to areas of high risk, carry out the Government Corporation
Control Act's requirement for an audit of CNS financial statements, and better learn CNS'
operations. We have changed our methods for performing audits and our reports. And, we
have experienced changes in personnel. Consequently, much of the work begun in the first
half of the year is still in progress and at March 31st, three audits begun in the prior period are
still in the reporting stage.

Yours truly,


&-/ pk--
Luise S. Jordan
Inspector General


Enclosure



                                                                                          I201 New York Avenue, NW
                                                                                          Washington, L
                                                                                                      X 20525
                                                                                          Telephone 202-606-5000




                                                                                          Getting Things Done.
                                                                                          Amencorps. National Service
                                                                                          Lcam and Serve America
                                                                                          National Senior Service Corps
